AFFIDAVIT OF SERVICE
I, Sean A. Kirkpatrick, Senior Deputy Attorney General, being duly sworn, depose and say
that on February 10, 2020, I caused to be served copies of the paperbook described below as
follows:

No. 19-867
IN THE SUPREME COURT OF THE UNITED STATES,
Shella A. Khatri, et al., Petitioners v. Kareem Garrett, et al., Respondents —
Brief in Support of Petition for Writ of Certiorari

By First Class Mail, postage prepaid to:

40 Copies To: Scott S. Harris, Clerk
UNITED STATES SUPREME COURT
1 First Street, N.E.
Washington, DC 20543-0001

3 Copies TO: Michael J. Bently, Esquire Michael Hugh McGinley, Esquire
Bradley Arant Boult Cummings LLP Dechert LLP
One Jackson Place 1900 K Street, NW
188 E. Capitol St., Ste. 1000 Washington, DC 20006
Jackson, MS 39201 Counsel for Kareem Garrett

Counsel for Shella A. Khatri, M.D., et al.

Electronic service to counsel for the other parties has been provided at:

mbentley@bradley.com and michael.meginley@dechert.com.

 

Sworn to and Subscribed Before Me Senior Deputy Attorney General
This 10th Day of February, 2020. OFFICE OF ATTORNEY GENERAL
a l ‘/ y ‘) Appellate Litigation Section
/ ANAM /) Ke Jin 15" Floor, Strawberry Square
NOTARY PUBLIC Harrisburg, PA 17120

(717) 705-2331

OMMONWEALTH OF PENNSYLVANIA

NOTARIAL SEAL

MELISSA li. RITZMAN, Notary Publlo
Dauphin County, Guy ot Rartlburg

My Gonmiasion Expires Apri 29,2020

  
     

  

   
